                    United States Department of the Interior
                                OFFICE OF INSPECTO R GEN ERAL
                                     Washi ngton, DC 20240




                                                                            NOV 1 0 2009

Memorandum

To :       Grayford Payne
           Chief Financial Officer -   Indian Affairs

From:      Kimberly Elmore 4t.~71/lt ~r C:CH1.-<- LIL-
           Assistant Inspector General fo r' Audits, Inspections and Evaluations

Subject:   Office oflnspector General ' s Independent Report on the "ONDCP [Office of
           National Drug Control Policy] Performance Summary Report - BIA" (Report No.
           ER-IN-BIA-OO 14-2009)

       The Office of Inspector General (OIG) reviewed the assertions in the subject report
(attachment) dated August 17, 2009 (Report). The ONDCP Circular: Drug Control Accounting
dated May 1, 2007 requires the Report. Bureau oflndian Affairs (BIA) management is
responsible for the Report and the assertions made within it. We provided a draft of this report to
BIA management on September 8, 2009. BIA did not provide a response to the draft report;
consequently, we are issuing the report in final without management comments.

        We performed our review in accordance with generally accepted government auditing
standards applicable to attestations that incorporate American Institute of Certified Public
Accountants attestation standards. Our procedures were limited to inquiries and anal ysis
appropriate for a review engagement, which is substantially less in scope than an examination,
the objective of which is the expression of an opinion on management' s assertions. Accordingly,
we do not express such an opinjon.

        Based on our review, we have reservations regarding management 's assertions that
"performance reporting systems are appropriate and applied" and that the "methodology to
establish performance targets is reasonable and applied. " We do not have reservations regarding
management assertions that "explanations for not meeting performance targets are reasonable"
and "adequate performance measures exist for all significant drug control activities." We found
that BrA did not have sufficient controls to provide reasonable assurance that the reported
performance information is complete and accurate. Without accurate current and past
performance information, it is not possible to set future performance targets that are reasonable.

        Specifically, we found problems with all three performance measures in the Report.
Performance measure 1, percentage increase of certified drug officers, is based upon information
on 1) the number of officers trained provided by the Indian Police Academy and
2) statistics on the number of officers employed provided by tribal and agency police units. We
found problems with both components of the measure in that BIA:

      could not identify the source of the original number of officers employed and had to
       change the denominator from 3,139 to 2,805 after we asked for support, and

      included individuals scheduled to attend a class who had not actually attended, which
       overstated by four the number of officers trained.

Further, BIA’s calculation of the percentage of certified drug officers did not take into account
officers who were trained and are no longer with the tribe or agency, or officers trained more
than once. These two factors could lead to overstatement of the percentage; they would have
little, if any, impact, however, on the FY 2008 numbers because the drug training program is
fairly new.

        Performance measures 2 and 3 are new for fiscal year (FY) 2008 and are based upon
information entered by tribes and agencies into the Office of Law Enforcement Crime Statistic
Reporting Application. In analyzing the supporting detail for grams of drugs seized (measure 2)
and number of drug cases opened (measure 3) by month and agency or tribe, we found that no
data were reported for these measures for the first quarter of FY 2008. BIA officials explained
that information might not have been reported for the first quarter because these were new
measures. In addition, they stated that they have had difficulties getting tribes to report complete
and timely information. Past OIG reviews have also identified problems with complete and
timely reporting. While BIA has existing controls on verification of entered data, no controls are
in place to ensure complete and timely submission of that data.

         In addition, BIA may be overstating the degree of review of the performance data system.
BIA states in the Report that “this data system has undergone 2 years of extensive review by the
KPMG auditors and was found to be a sound system that provides for the validation and
verification of data from the field with certification by headquarters associate directors for
accuracy.” According to the manager involved, the KPMG review was limited, especially for
the last 2 years. As previously stated, it is impossible to establish reasonable performance targets
without reliable current performance information.

        We also noted differences between the targets reported in the Report and those reported
elsewhere that raise questions about target establishment. Specifically, the performance targets
for FY 2009 in the Report do not agree with those in BIA’s FY 2010 Budget Justification. BIA
attributed the disparity to timing differences but was unable to provide specific explanations for
significant differences. For example, the target increase in grams of drugs seized was 54 percent
in the Budget Justification but only 10 percent in the Performance Summary Report.

        Finally, BIA did not provide us with either the Performance Summary Report (PSR) or
supporting information in time to meet the reporting deadline of February 1st. In order to meet
this deadline in the future, BIA should provide us with the information by December 31st of each
year or earlier, as the Circular recommends.


                                                 2
        Except for the matters discussed above relating to management’s assertions that
performance reporting systems are appropriate and applied” and that the “methodology to
establish performance targets is reasonable and applied,” nothing caused us to believe that the
other management assertions, contained in the accompanying Performance Summary Report, are
not fairly stated in all material respects, based upon the ONDCP Circular: Drug Control
Accounting dated May 1, 2007.

Recommendations

      To improve the quality and timeliness of future Performance Summary Reports, we
recommend that the BIA Director ensure that the Office of Justice Services (OJS):

   1. Implements proper procedures to accurately track and report training information;

   2. Provides the PSR and supporting information to the OIG in sufficient time (Dec. 31 of
      each year or earlier) to meet the reporting deadline; and

   3. Continues to work with tribes and agencies to improve the reliability and timeliness of
      reporting performance information. In conjunction with this, OJS should:

           a. have tribes and agencies complete a report for each month whether or not they
              have related activity;

           b. monitor whether tribes and agencies are reporting in a timely manner; and

           c. provide training and instruction on use of the reporting system.

   4. Reviews on a test basis the accuracy of support for reported information.

       Please provide this office a written response to this report within thirty days. Your
response should state concurrence or nonconcurrence with the findings and recommendations,
including specific reasons for any nonconcurrence.

        Should you have any comments or questions regarding this report, please do not hesitate
to contact me at 202–208–5512.

Attachment (1)




                                               3
                        ONDCP Performance Summary Report ---- BIA

     Measure 1: Increase the percentage of certified drug officers.

               2005            2006                 2007         2008              2008          2009
               Actual         Actual               Actual       Target           Actual        Target
                                ..003%
                                 .003
                                  003%%           0.47
                                                  0.47%%          6%%               8%           15
                                                                                                 15%%
               UNK            (8/2353)
                              (8/ 2353)         (11/2353)
                                                (11/
                                                (11 / 2353)   (200/ 2805)
                                                              (200/2805)        (217/ 2805)
                                                                                (217/2805)    (417/ 2805)
                                                                                              (417/2805)

     This measure tracks the Bureau
                               Bureau'' s efforts to train patrol officers to allow them to be better
                               Bureau's
     prepared to assist the drug enforcement officers in drug related investigations and arrests.
                                                                                               arrests .
     In FY 2008
            2008,, the BIA exceeded itit'' s goal target and trained 217 patrol officers in basic
     drug training and in FY 2009 BIA expects to expand that training to an additional 200
     officers                                recei ved basic training in FY 2008
     officers.. Of those 217 officers that received                          2008,, those that show
     an interest and dedication in the area of drug investigations will be provided the
     opportunity in FY 2009 to further enhance their education and investigative capabilities
     through Advanced Drug training as well as Field Training Agent (FTA)    (FT A) training.

     Official training records are maintained at the Indian Police Academy and summarized
     within an Excel spreadsheet and reported to the Drug Enforcement Division on an annual
     basis. Submissions are reviewed and verified by the Chief
                                                            Chief,, Indian Police Academy and
     forwarded to the National Drug Coordinator for validation,
                                                       validation, who then forwards to the
                         Officer,, Central Office OJS for inclusion in the quarterly performance
     Strategic Planning Officer
     report.

     Measure       ncrease in the amount of grams
     Me asure 2: IIncrease                  gra ms of various drugs seized.
                                                                    seized .

       2005       2006       2007           2008                         2008                           2009

      Actual     Actual     Actual         Target                       Actual                          Target
                                          Establish             Baseline
                                                                     linee Established
                                                                Bas elin   Established                10
                                                                                                      10%%
II    N/A
      N/ A        N/A        N/A
                             N/ A         Baseline
                                          Base line                         seiized
                                                                1,994 grams se
                                                                1,994       seized                 1999/ 1994g
                                                                                                   1999/1994g

     This measure was developed in FY 2008 to track the increase in drugs seized as
     compared to the number of increased drug agents and drug trained patrol officers.
                                                                               officers . A
     baseline of 1,994 grams of various drugs seized in FY 2008 was established and the
     Bureau expects to be able to increase the amount seized by 10% with the continued hiring
     of drug agents
             agents,, trained officers
                              officers,, and implementation of the new Drug Enforcement
     Division within the Office of Justice Services.

     The Office of Justice Services (OJS)
                                        (OJS ) uses an automated data database to gather monthly
     drug statistics, includ ing the amount of drugs seized.
                      including                         seized . Data is entered at the field level by
                                           agencies. Additionally,
     drug agents and law enforcement agencies.        Additionally , tribal programs that are
     involved in the equipment loan program provide monthly statistics to the Central Drug
     Enforcement Office for input in to the ssystem.
                                                  ystem.
                                                  ystem. Information submitted within the system
     is first entered and verified bbyy the Deputy Drug Officers and then is reviewed a second
     time by the Associate Director for Drug Enforcement where it receives final approval
     before use at the Headquarters O     ffice for quarterly reporting
                                         Office               reporting..
Measure 3: Percent increase in the number of drug cases worked.

 2005         2006          2007           2008                   2008                       2009
Actual       Actual        Actual         Target                 Actual                     Target
                                       New
                          20 Cases     measure                    425 %                      40 %
 N/A          N/A          worked      No target                 105/20                     42/105



This measure was developed in FY 2008 to track the increase in the number of cases
worked in FY 2007 as compared to the number of cases worked in FY 2008 with the
development and implementation of the new Drug Enforcement Division. In FY 2008,
the Bureau realized a 425% increase in the number of cases worked with the initial influx
of 12 agents. The Bureau expects to be able to further increase this amount in FY 2009
with full staffing of 30 agents and the additional trained patrol officers.

The Office of Justice Services (OJS) uses an automated data database to gather monthly
drug statistics, including the number of drug cases worked. Data is entered at the field
level by drug agents and law enforcement agencies. Additionally, tribal programs that
are involved in the equipment loan program provide monthly statistics to the Central
Drug Enforcement Office for input in to the system. Information submitted within the
system is first entered and verified by the Deputy Drug Officers and then is reviewed a
second time by the Associate Director for Drug Enforcement where it receives final
approval before use at the Headquarters Office for quarterly reporting.

III. MANAGEMENT ASSERTIONS
   1.    Performance reporting systems are appropriate and applied - The agency has a system to
         capture performance information accurately. This data system has undergone 2 years of extensive
         review by the KPMG auditors and was found to be a sound system that provides for the validation
         and verification of data from the field with certification by headquarters associate directors for
         accuracy. FY 2008 was the first year of capturing data for these measures and the Lotus Notes
         System was modified in October 2008 to capture the drug information. This system will be used
         for 2009 and out year reporting and is properly applied to generate the performance data. The
         records on drug training are maintained by the Indian Police Academy and reported at year end.
   2.    Explanations for not meeting performance targets are reasonable - With the exception of the
         measure on certified drug officers which exceeded it's target, the other drug goals were newly
         established in FY 2008 to allow for better tracking of drug funding. Each of these measures
         achieved reasonable performance levels in FY 2008.
   3.    Methodology to establish performance targets is reasonable and applied - The performance
         targets for the current year are reasonable and were established based upon past performance and
         what can be achieved within available resources .
   4.    Adequate performance measures exist for all significant drug control activities - The agency
         has established two additional, acceptable performance measures to adequately cover each ofthe
         decision units. Each measure considers the intended purpose of the NDCP activity.
